No.

In the Supreme Court of the United States of America

VAGAN ADZHEMYAN, Petitioner,

v.
UNITED STATES, Respondents.
MOTION FOR LEAVE TO PROCEED JV FORMA PAUPERIS

Pursuant to Rule 39.1 of this Court, Petitioner Vagan Adzhemyan asks
leave to file the attached Petition for Writ of Certiorari to the United States
Court of Appeals for the Ninth Circuit without prepayment of fees or costs, and
to proceed in forma pauperis.

The district court appointed counsel to represent Mr. Adzhemyan under
the Criminal Justice Act (18 U.S.C. ยง 3006A(d)(6)) during part of this case
based in his financial indigence. He remains incarcerated at the time of this
petition.

Dated: 2 712979

Respectfully submitted,

   

 

 

. Johnson, Esq.
Attorney for Petitioner,
VAGAN ADZHEMYAN

 
